<html>
<title> - FEMA REAUTHORIZATION AND CUTTING THE RED TAPE IN RECOVERY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                    FEMA REAUTHORIZATION AND CUTTING
                        THE RED TAPE IN RECOVERY

=======================================================================

                                (112-46)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 14, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation



                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
67-385 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
Tennessee

                                 _____

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                   JEFF DENHAM, California, Chairman
TIMOTHY V. JOHNSON, Illinois         ELEANOR HOLMES NORTON, District of 
ERIC A. ``RICK'' CRAWFORD,               Columbia
    Arkansas,                        HEATH SHULER, North Carolina
  Vice Chair                         MICHAEL H. MICHAUD, Maine
RANDY HULTGREN, Illinois             RUSS CARNAHAN, Missouri
LOU BARLETTA, Pennsylvania           TIMOTHY J. WALZ, Minnesota
BOB GIBBS, Ohio                      DONNA F. EDWARDS, Maryland
PATRICK MEEHAN, Pennsylvania         BOB FILNER, California
RICHARD L. HANNA, New York           NICK J. RAHALL II, West Virginia
CHARLES J. ``CHUCK'' FLEISCHMANN,      (Ex Officio)
    Tennessee
JOHN L. MICA, Florida (Ex Officio)

                                  (ii)












                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                               Panel One

Fugate, Hon. Craig, Administrator, Federal Emergency Management 
  Agency, Department of Homeland Security........................     5

                               Panel Two

Berginnis, Chad, CFM, Associate Director, Association of State 
  Floodplain Managers............................................    22
Griggs, Cline, District 4 Council Member, White Mountain Apache 
  Tribe..........................................................    22
Hatfield, Jerome, Deputy Superintendent of Homeland Security, New 
  Jersey State Police, National Emergency Management Association.    22
Little, Phyllis, Director, Cullman County, Alabama, Emergency 
  Management Agency, and Member, U.S. Council of the 
  International Association of Emergency Managers................    22

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hanna, Hon. Richard L., of New York..............................    33
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    34

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Berginnis, Chad, CFM.............................................    36
Fugate, Hon. Craig...............................................    51
Griggs, Cline....................................................    69
Hatfield, Jerome.................................................    81
Little, Phyllis..................................................    86

                       SUBMISSION FOR THE RECORD

Fugate, Hon. Craig, Administrator, Federal Emergency Management 
  Agency, Department of Homeland Security, responses to questions 
  from the Subcommittee on Economic Development, Public 
  Buildings, and Emergency Management............................    61

                        ADDITIONS FOR THE RECORD

BuildStrong Coalition, written statement.........................    96
U.S. Travel Association, written statement.......................   102

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 
                    FEMA REAUTHORIZATION AND CUTTING
                        THE RED TAPE IN RECOVERY

                              ----------                              


                        THURSDAY, JULY 14, 2011

                  House of Representatives,
      Subcommittee on Economic Development, Public 
               Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:09 a.m., in 
room 2253, Rayburn House Office Building, Hon. Jeff Denham 
(Chairman of the subcommittee) presiding.
    Mr. Denham. The subcommittee will come to order. First, let 
me welcome FEMA Administrator Fugate and all of our 
distinguished witnesses and thank them for testifying this 
morning at today's hearing on FEMA reauthorization and 
examining how we can cut the red tape in helping communities 
rebuild and recover following a disaster.
    At our hearing in March, we focused on how prepared we are 
to respond to a catastrophic disaster in the wake of the 
earthquake and tsunami in Japan. Today we will look at what 
happens next. After the initial response, how do we help 
communities pick up the pieces and recover quickly? So far this 
year, we have had 48 major disaster declarations, from 
tornadoes hitting communities in States like Missouri, Alabama, 
and Tennessee, to flooding in Vermont and Mississippi and 
wildfires in Texas. Thirty-two States so far this year have had 
major disaster declarations, 9 States have had emergency 
declarations, and 12 States had a total of 79 fire management 
assistance declarations. And this is without any major 
hurricanes yet this hurricane season.
    After the initial response, communities are left with homes 
destroyed, businesses and stores damaged and closed, roads 
blocked, and lives lost. Cleaning up, rebuilding, and 
recovering quickly from disasters is critical. We know from 
experience the longer the rebuilding and recovery takes, the 
higher the cost to the taxpayer, the longer people are without 
jobs and schools for their children, and the more local 
governments lose in revenue. A long recovery hurts everyone, 
not least of which are the people who have lost everything.
    Our subcommittee has held hearing after hearing to learn 
the lessons from Hurricane Katrina and find ways to speed up 
the recovery process. Many of FEMA's regulations and policies 
have created so many hurdles and so much red tape that 
communities devastated by disasters have often found it 
frustrating to navigate the process. For example, in 2000 
Congress enacted the Disaster Mitigation Act and included 
provisions requiring FEMA to implement cost estimating to help 
communities rebuild faster. By all accounts, this one change 
could help streamline one of FEMA's key disaster assistance 
programs. However, it is now 11 years later, and FEMA has yet 
to implement those provisions.
    I understand FEMA now is engaged in a Bottom Up Review of 
its public assistance program, is in the process of finalizing 
a national disaster recovery framework and is testing a new 
debris removal pilot program. While I am pleased to see these 
steps are being taken, I am worried these actions have taken 
just too long. With high unemployment, budget deficits, and 
everyone having to tighten their belts, we just simply cannot 
afford to have these recoveries drag on.
    I hope today we can hear from our witnesses on how the 
recovery process can be streamlined and improved. I also hope 
we can receive input on FEMA's reauthorization and what changes 
may need to be made as we consider legislation.
    FEMA was originally created in 1979 by Executive order and 
operated for nearly 30 years without explicit authorization and 
statute. FEMA was authorized in statute in 2006 through the 
Post-Katrina Act, and that authorization expired last year. 
While FEMA can continue to operate without explicit 
authorization, authorizing FEMA in the law helps to provide 
congressional guidance in the operations of the Agency. I look 
forward to working with Administrator Fugate, members of this 
committee, and other stakeholders on the reauthorization of 
FEMA.
    I, again, thank the witnesses for being here today to 
address these important issues.
    I would now like to recognize Ranking Member Norton from 
the District of Columbia for 5 minutes to make any opening 
statement she may have.
    Ms. Norton. Thank you very much, Mr. Chairman, and I very 
much appreciate your calling this hearing. I apologize to you 
and to Mr. Fugate that I will be running back and forth, after 
this statement I must run to a hearing where a vote is soon to 
be called, but this is a very important hearing to me and to 
the American people. We are pleased to welcome all of our 
witnesses today to discuss the need to improve and expedite 
recovery efforts from disasters as well as to reauthorize FEMA. 
During the 110th and 111th Congresses, our subcommittee held 
hearing after hearing to ensure that FEMA would not repeat its 
failures on the Gulf Coast.
    Now nearly 6 years after Hurricanes Katrina and Rita struck 
our Nation, recovery efforts finally have progressed, in part, 
because FEMA, pressed by our subcommittee, has addressed some 
of the problems that impeded recovery. However, there remain 
other areas for improvement to ensure quicker recovery from 
disasters.
    The recent tornadoes, floods, and wildfires that have 
caused great losses in human life and property should push all 
of us, once and for all, to improve the recovery process and to 
ensure that we are not still talking about rebuilding efforts 
in places such as Joplin and Minot 6 years from now.
    FEMA's recent initiation of a Bottom Up Review of its 
public assistance program, FEMA's primary program for 
rebuilding infrastructure and public facilities following 
disasters, reveals that FEMA understands what it can do and 
knows that it must do it better. Not only does lengthy recovery 
prolong suffering, but delays also drive up costs and impact 
jobs. Particularly now as our Nation climbs out of the great 
recession, we must avoid the experience following Hurricane 
Katrina, when billions of dollars in recovery funds went 
unspent for years, waiting to be used on construction of vital 
infrastructure that would have helped restore jobs and economic 
prosperity to the Gulf Coast, finally this subcommittee had to 
move with a new process in order to assure that so much in 
funds was not left on the table.
    Although there has been progress in other areas, FEMA 
continues to show some troubling signs. On September 22nd of 
last year, this subcommittee held a hearing on lessons learned 
from Hurricane Katrina. At that hearing I asked FEMA to move to 
a system that pays State and local governments for repair and 
reconstruction projects on the basis of cost estimates, as is 
done in the insurance industry, and as mandated by the Disaster 
Mitigation Act of 2000.
    We must learn today why nearly 11 years after President 
Clinton signed that bill into law, FEMA still has not 
implemented a rule to institute a cost-estimating system which 
would surely avoid the lengthy delays in recovery that have 
characterized past disasters.
    I am pleased to be working with Chairman Denham on his bill 
to reauthorize FEMA's management and administration account, 
along with two crucial programs administered by FEMA, the Urban 
Search and Rescue System, and the Emergency Management 
Assistance Compacts, or EMAC, which FEMA originally created in 
1979. EMAC helped to centralize the Federal Government's 
emergency response mechanisms and coordinate the Government's 
response to disasters. In 2006, after Hurricane Katrina exposed 
many of FEMA's weaknesses, Congress passed the Post-Katrina 
Emergency Management Reform Act to authorize FEMA for the first 
time and to strengthen FEMA by providing the Agency with 
additional authority to accelerate Federal assistance in the 
absence of a State request to expedite payments for debris 
removals and to use local contractors, among other reforms. The 
urban search and rescue, first established by FEMA in 1989, 
created a system of task forces, now numbering 28 in 19 States, 
which respond to structural collapses resulting from any type 
of disaster. We have been very proud of the work of these Urban 
Search and Rescue teams. For example, teams from California, 
Virginia, New York, and Florida responded to the Haiti 
earthquake of 2010 that shook many of Port-au-Prince's 
buildings to the ground. The American teams alone are credited 
with rescuing 46 people from the rubble.
    In addition to the Urban Search and Rescue, EMAC plays an 
important role in disaster response by offering a method for 
States to quickly and efficiently provide aid when disaster 
strikes, when States do not have the needed personnel or 
resources. Just this month, the California Emergency Management 
Agency responded to an EMAC request from the State of Montana 
for technical advice and assistance in responding to the oil 
spill on the Yellowstone River. California personnel are 
currently on the scene. I hope our subcommittee can act now and 
reauthorize these important programs.
    Again, I thank the witnesses for appearing today and look 
forward to their testimony.
    Mr. Denham. I now call on the ranking member of the full 
committee, Mr. Rahall, for a brief opening statement.
    Mr. Rahall. Thank you, Chairman Denham, and thank you, 
Ranking Member Norton, for conducting these hearings today. 
They are very important, and I know there are a number of 
people in attendance that have been personally affected and 
witnessed much devastation during this year, and they certainly 
welcome FEMA's help.
    Mr. Administrator, we appreciate your being with us as 
well. I know the hearing will be important to making the 
necessary corrections and refinements that are necessary to 
deliver help to our people.
    I do want to also say a special welcome to the Honorable 
Cline Griggs, who is a District 4 Tribal Council member of the 
White Mountain Apache Tribe. This is an important occasion 
because it is possibly, Mr. Chairman, the first time ever that 
a Native leader has testified before this subcommittee on 
emergency management issues.
    Today's hearing is on the reauthorization of FEMA and 
expediting disaster recovery. I would assert that no discussion 
about emergency management, whatever the focus, is complete 
without Indian tribes at the table. Tribal governments provide 
emergency response services such as law enforcement, 
firefighting, and health care to their citizens and to their 
neighbors in the same manner as any other governments. Like the 
rest of us, Indian citizens in their lands experience 
disasters. In fact, over the last several years, Native America 
has suffered damages from Hurricanes Katrina and Rita to winter 
ice storms in South Dakota last year that cut off heat, water, 
and electricity for several days in below-zero temperatures to 
the recent flooding of the Yellowstone River in Montana. Many 
tribal lands are also vulnerable to forest fires.
    Unfortunately, the White Mountain Apache Tribe knows this 
firsthand. Not only did the tribe suffer devastating losses 
from a 2002 wildfire but tribal forests were also damaged last 
month when the Wallow Fire, which burned its way across 
Arizona, crossed on to reservation lands. So whatever the 
disaster, Native America rises to the challenge to help 
themselves and to help others respond and recover from the 
disaster at hand, yet despite the courage, strength, and 
resilience shown by Native Americans in their response efforts, 
Federal law does not fully recognize tribes for their recovery 
efforts. Under the Stafford Act, Indian tribes are treated as 
local governments of the State and must rely upon State 
Governors to request a disaster declaration on their behalf 
when they are overwhelmed.
    While this may work in some disaster situations, it does 
not work in all situations. In those situations where it does 
not work, Indian tribes may be left to bear the cost on their 
own. So that is why I have introduced H.R. 1953, a bill that, 
first and foremost, recognizes tribal sovereignty. By doing so, 
the bill would allow Indian tribes to directly request the 
President to declare a disaster for tribal lands. I believe 
that is a first step in addressing some of the emergency 
management challenges faced by Indian country.
    Again, Mr. Chairman, I thank you very much for the 
opportunity of making an opening statement, and thank those 
witnesses that are with us today.
    Mr. Denham. Thank you. I would like to welcome our 
witnesses here today. On our first panel we have the Honorable 
Craig Fugate, Administrator, Federal Emergency Management 
Agency. I ask unanimous consent that our witness's full 
statement be included in the record. Without objection, so 
ordered.
    Since your written testimony has been made a part of the 
record, the subcommittee would request that you limit your oral 
testimony to 5 minutes.

    STATEMENT OF HON. CRAIG FUGATE, ADMINISTRATOR, FEDERAL 
  EMERGENCY MANAGEMENT AGENCY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Fugate. Thank you, Mr. Chairman and Ranking Member 
Norton. When it comes to tribal issues, you are exactly right, 
sir.
    Mr. Denham. Can you scoot the microphone a little bit 
closer.
    Mr. Fugate. Yes. When it comes to tribal issues you are 
absolutely right.
    Mr. Denham. And turn it on.
    Mr. Fugate. It is on. Is that better?
    Mr. Denham. There we go. Thank you.
    Mr. Fugate. When it comes to tribal government, the 
sovereignty of those governments is not recognized in the 
Stafford Act, as you pointed out. The one thing we have been 
able to do is do a rule change that recognizes that once a 
declaration is issued, tribal governments do have the option to 
be the grantee, which has been another huge issue for the 
sovereignty of tribes when they have to either serve as a 
subgrantee of the State. Our understanding is that we are 
working to provide technical assistance on this issue, but I 
think the key thing for me with tribal governments is self-
determination and recognizing the sovereignty of them when it 
comes to our Federal programs, and I am in full concurrence 
with you on that, sir.
    Mr. Rahall. Thank you.
    Mr. Fugate. Mr. Chairman, getting back to FEMA, the red 
tape in disaster recovery, there is always a challenge to 
balance speed and efficiency and operations with maintaining 
control over fraud and waste. From this committee is one 
example, in individual assistance programs, our error rate in 
the Katrina-Rita storms was running about 10 percent of 
payments made inappropriately or to people who were not 
eligible. Last year obviously not the same numbers we were 
dealing with, that error rate is now down to about 0.3 percent 
and below.
    But that requires us to make sure we do due diligence that 
when people register for assistance that we assure that, A, 
they are actually residents in the area impacted, that they had 
losses tied to the disaster, that we are not duplicating 
benefits, verify if they have insurance coverage for their 
losses. FEMA will also verify whether applicants may qualify 
for low-interest disaster loans before providing grants for 
essential personal property. SBA loans can also provide home 
repair and replacement funds above the current $30,200 maximum 
grant. But in the recent disasters, that process has only been 
taking about 2 days from the time somebody calls and registers 
until we get a housing inspector out to their homes until we 
are able to get them a determination on assistance, and in many 
cases, if they did qualify for the FEMA grant dollars, 
literally direct account deposits occurring within days of 
their registration.
    So we do have a lot of red tape, but I think part of it is 
to make it so that it is achieving the goal of containing fraud 
and waste, but not necessarily delaying the assistance to the 
survivors and local governments. That becomes particularly 
challenging when you talk about public assistance because in 
these types of disasters, the nonduplication of other Federal 
programs, the requirement to ensure that if insurance was 
available and was enforced that we see what the insurance 
covered and then look at the uninsured losses. It means that we 
still have to do our due diligence in determining what is 
actually eligible under our programs and are we making an 
appropriate determination on the assistance being provided?
    Probably the first area that most local governments deal 
with in any disaster is the emergency protective measures and 
the extraordinary costs sometimes of responding to these types 
of disasters as well as debris, and I think one of the things 
that you brought up from the ranking member is the emergency 
management assistance compact in mutual aid. In the most recent 
tornadoes, floods, and impacts in the southeast across these 
various disasters, the primary response was actually local 
government, supported by instate mutual aid, supported by 
assistance from other States through the emergency management 
assistance compact. I don't know if that would have been 
possible prior to September 11th of 2001, but given the 
investment this Nation has made in building the capabilities, I 
think we need to really recognize that what we have built is a 
national system that leverages the resources at the State and 
local level through their mutual aid agreements with the 
Federal Government, oftentimes supporting recovery because the 
response was managed with State and local government.
    One of the things we have tried to do with debris, and this 
was, again, something I think you will hear from some of the 
folks that have dealt with this. This is a brand new program. 
When we generally dealt with debris in most disasters, because 
it is on private property, we have oftentimes said we need to 
move it to the right-of-way before we can pick it up. The 
problem is when you have a tornado strike and literally leave a 
trail of devastation where you don't know whose debris is on 
whose property, and property lines are not even visible, moving 
debris to the right-of-way would definitely slow down response, 
so we implemented a pilot program in Mississippi, Alabama, and 
in Missouri looking at how we quickly go in to private 
property, residential, noncommercial to remove debris from that 
property to get the community back on its feet faster and 
really focus on housing, which becomes the next big issue when 
you have all that destruction.
    The Governor of Alabama basically stated that we have moved 
more debris in about 3 months, a little less than 3 months than 
we moved in 6 months in Hurricane Ivan, so we are moving it 
faster, but it is still a program that does require us to do 
due diligence to make sure that we are accounting for that, and 
because it was new, there were still a lot of steep learning 
curves, so we are taking those lessons and working with our 
State and local partners to look at how we improve it.
    As one example of how we are trying to speed up the process 
to get communities back on their feet quicker by getting debris 
picked up so we can get housing going. With that, Mr. Chairman, 
I will turn it back over for questions.
    Mr. Denham. Thank you, Mr. Fugate. First of all, as you 
know, since post-Katrina, we now do reauthorization, we are 
preparing that reauthorization now. What do you believe are the 
key issues that should be addressed as FEMA is reauthorized?
    Mr. Fugate. I think, again, it was pointed out that for so 
long, FEMA had been a creation of Executive orders and 
authorization for spending. The Post-Katrina Reform Act was 
really the first time in legislation that we had a defined 
mission statement. It described our structures and our roles 
and responsibilities. Again, I think FEMA will be working with 
the committee to provide technical assistance, but I think it, 
again, is important that Congress defines what is the 
expectations for FEMA, and that as we adjust to our changing 
environment that you continue to provide what it is that you 
expect from the Federal Government to provide in disaster 
response, and so in drafting the reauthorization, we are more 
than willing to provide technical assistance, but I think it 
still comes back to the intent of Congress when we talk about 
these disaster programs, our assistance we provide, and the 
level of response that you feel the Federal taxpayer should be 
responsible for and what we see as a shared responsibility with 
State and local government in dealing with disaster threats.
    Mr. Denham. And there have already been 48 major disasters 
declared this year, and we still have another half a year to 
go. Do you believe there is sufficient funds in the disaster 
relief fund to cover the expected costs of these disasters and 
any future disasters?
    Mr. Fugate. Mr. Chairman, let me be factual. I cannot 
foretell the future, so I don't know if I am going to have a 
hurricane or a catastrophic event in the near future. Right now 
the disaster relief fund is at $1.38 billion. That is actually 
a little bit higher than it was last month, which is 
counterintuitive given all the disasters, but we are also 
dealing with a large number of open disasters that we are 
working to close out and deobligate funding from projects that 
are already completed and return funds back into the DRF, and 
so that has been successful this year as we continue to work 
with our State partners as the mission is done, the project has 
been done, but we have perhaps written the project worksheet 
for $200 million is the initial estimate, the work was only 
$150 million is to return that $50 million back in.
    Based upon that, we project with the current workload 
perhaps getting to about a billion dollars to $800 million 
sometimes the end of July, first of August, which would prompt 
us to look at do we need to reduce funding for any nonmission 
critical, particularly life-saving or protective measures and 
human services, still projecting at the end of the fiscal year 
some balance in that, but there is a lot of variables, 
particularly the Missouri River flooding that is still ongoing 
as well as do we have any additional disasters.
    Mr. Denham. So you start off, I just want to make sure I 
understand the process that you go through in funding all the 
disasters. You start off more of a full funding projection at 
the beginning of the year depending on the disaster. Assuming 
we have another Katrina or some huge unforeseen disaster, you 
could obviously utilize the entire pot of money on that one 
disaster?
    Mr. Fugate. Yes, sir, and that is why when we get down to 
about a billion, $800 million, we look at where we are at in 
our fiscal year and when we would expect to have the next 
appropriations in the Stafford Act, and what we try to do is 
not go below a limit that would preclude us from responding to 
the next catastrophic disaster. So we try to maintain a level 
of funding and balance there that we would be reluctant to go 
below unless we knew our appropriation was right behind that. 
That is why we look at about the end of July, first of August 
as we start approaching about a billion dollars to $800 
million. Do we need to slow down or stop some work that is not 
tied to protective measures, debris or individual assistance 
until our next appropriation?
    Mr. Denham. You said that you cannot plan for--let me first 
ask, is this a typical year that we are seeing right now? Would 
you consider this an average year, below average year?
    Mr. Fugate. It has been a very active year. What is 
interesting is, as devastating as these have been to the local 
communities, they are not the widespread type impacts we see in 
hurricanes and earthquakes. Although the loss of life has been 
extreme, none of these have really reached the point of what we 
consider catastrophic disasters from the standpoint of a 
financial of over $500 million.
    As one example, individual assistance since the tornadoes 
struck in North Carolina, which was a couple weeks before the 
tornado outbreak in the southeast, all the way through this 
process, including the ongoing flooding up in North Dakota, 
individual assistance payments for both housing and other 
programs has been about $170 million. So, again, as we look at 
this, even though this is very localized and very devastating, 
it does not quite reach the type of response cost you see in a 
widespread disaster, so those costs are still--again, you would 
think with all this activity, the DRF would be steadily going 
down, but as we are recouping dollars from older disasters, our 
fund balance actually went up a little bit.
    So we are maintaining this. This is part of what we had 
planned for is the level of activity is generally higher than 
what we have seen, but, again, because we have had a lot of 
older disasters we are closing out, we are almost--I would not 
say we are staying even, but we are not seeing it go down 
rapidly like you would see with a big hurricane or big 
earthquake where we had large geographical areas that were 
impacted.
    Mr. Denham. Finally, I just wanted to follow up on one 
piece. The thing I am going to be looking at very critically as 
we go through this reauthorization is I am concerned, as we are 
seeing this year with the $1.38 billion, 48 major disasters, I 
am concerned that we are going to, especially in a tough budget 
year, one that we are looking for cuts everywhere, I am 
concerned that we are going to spend the large, the bulk share 
of that money early in the year without any new monies being 
appropriated, and I would disagree. I do think that there are 
some areas that we can plan for disasters. I would assume that 
we have got to have a greater amount of planning when we see 
that our levees are getting old and starting to fall apart, 
that we can anticipate that if States or the Federal Government 
is not stepping in and fixing those levees, we are going to 
have floods. If we are having a huge wet year, a huge snow pack 
but we don't have the water storage, we can anticipate floods.
    I think most critically in a State like California when we 
haven't managed our forests, when we have not fully utilized 
the timber harvesting plan, we have so much fuel on those 
grounds that at some point we are going to see more fire 
damage.
    So my concern is, as we are looking at this budget, that 
fire season is late in the year, at the end of the budget 
cycle, so a State like California ends up having a natural 
disaster, no funds left to expend, and as you have said, 
nonmission critical, you are spending heavy on the beginning of 
the year which is appropriate, but in a tough budget year, we 
could have a huge shortfall in some of those other areas. If 
you care to have a quick response.
    Mr. Fugate. Again, Mr. Chairman, the variable is you take 
all these different factors and project out. Our only real tool 
basically is hindcasting what we have seen our activity on 
average to be over 5-year periods, and look at the outliers of 
large scale catastrophic disasters is not fitting that process. 
I think that is part of the reason why there is a lot of 
concern about what is the balance of the DRF, particularly as 
we go in the more active part of hurricane season, and again, 
to be upfront, if we have a large scale Katrina-size hurricane, 
we have an earthquake of some magnitude, it will require 
additional funds to provide the response cost.
    Mr. Denham. Thank you. And before we move forward, I would 
ask for unanimous consent that Mr. Long of Missouri, who is a 
member of the Transportation Infrastructure Committee, be 
permitted to participate in today's subcommittee hearing. I 
would remind everybody that Mr. Long has Joplin in his 
district, and obviously we have certainly seen the devastation 
that has been caused there. Without objection, so ordered. I 
now turn to Ranking Member Norton.
    Ms. Norton. Thank you, Mr. Chairman. Mr. Fugate, the 
President, in his wisdom, appointed a professional. We 
acknowledge your long experience in Florida. I think bringing 
that experience from the field has helped you in your efforts 
to change and reform FEMA.
    I want to ask you some questions from my experience when we 
were most concerned about FEMA. I don't believe that the way to 
avoid problems is to have no regulations. I strongly object to 
the kinds of regulations that willy-nilly come down from 
Federal agencies. That is what makes people hate Government. So 
I am a strong advocate of streamlining. When I headed a Federal 
agency, I spent a lot of my time doing just that.
    Now, I mentioned in my opening statement a notion that is 
now in statute from 11 years ago and that is the kind of state-
of-the-art from private business bringing into Government that 
is proven and that has not been, so far as I know, implemented 
by FEMA, and that is the use of cost estimates for repair and 
construction projects, even though that was mandated long 
before you came actually 11 years ago.
    What is the concern? Why hasn't that time-saving efficient 
notion been implemented? Is it related to what you said in your 
opening statement, that you are always looking for fraud and 
abuse? What is the problem with using cost estimates?
    Mr. Fugate. Well, I think it is a question about writing it 
into a rule basis. I know that we do cost----
    Ms. Norton. Did you use them in Florida?
    Mr. Fugate. We wrote project worksheets, which was 
basically we would try to get the most accurate figure for what 
we estimated costs, and then we would go through the project 
worksheet, and then if we required an adjustment on that when 
we got true costs, we would adjust the worksheet. In Florida, I 
did not really run into this issue. Probably the area, though, 
probably the more tricky one is doing the cost estimates on 
debris, which would, again, be the ability to write a project 
for the debris, and do it on the upfront based upon cost and 
estimates, and that is one that is more technically, you know, 
tricky as to how do you do that in such a way that we ensure 
that we are not way off mark.
    But I would like to raise one issue you talked about, our 
rulemaking ability. When I got to FEMA, I had zero attorneys 
dedicated to rulemaking. I don't have a shop that does rules, 
yet I am an Agency that has tremendous regulatory and 
rulemaking authority, and I have a backlog of regulatory issues 
that we should have addressed already. So one of the things we 
did was we did not come back to Congress and ask for more 
positions and more money. We found our savings in our budget. 
We are for fiscal year 2012 authorizing eight new positions.
    Ms. Norton. But Mr. Fugate, you could use cost estimates 
not only in debris, even if you did not use them in debris, the 
statute said that these lawyers that you have hired could be 
doing a rule that allowed cost estimates to be used as an 
insurance for repair and construction projects. Why are they 
not being used in those projects?
    Mr. Fugate. Well, again, as I was trying to point out, we 
are working towards establishing a rule shop, bringing in the 
attorney and the economist that we would have----
    Ms. Norton. Are you intending to use cost estimates?
    Mr. Fugate. I have no opposition to it. As it goes through 
rulemaking, it is on the backlog.
    Ms. Norton. When is it--since you have got a whole set of 
disasters that you have had to deal with all at one time 
virtually, wouldn't cost estimates have helped you in that 
process, and cannot this be brought to the forefront if we are 
11 years after the statute mandated it?
    Mr. Fugate. In some States, no. In some States they will 
not----
    Ms. Norton. Let us talk about States where it can be done. 
Let us talk about doing a pilot project. Let's talk about 
implementing the statute. Can this rule be brought to have 
priority?
    Mr. Fugate. We can do it as our practices allow us to do 
now, which is to a certain degree do it in the project 
worksheet process, which we estimate what the costs are, and 
then we allow for adjustments when true costs come in.
    Ms. Norton. So are you doing cost estimates now? Is that 
what you are telling me?
    Mr. Fugate. We are not doing them in debris. We are doing 
them when we write a project worksheet, it is a cost estimate 
of what we think the costs are.
    Ms. Norton. So you think you are in compliance with the 
statute?
    Mr. Fugate. Do we have a rule in place? No, ma'am.
    Ms. Norton. I am asking you when a rule will be in place, 
Mr. Fugate, for cost estimates.
    Mr. Fugate. With many things with rules, there is a 
rulemaking process that will take time, and my understanding is 
that this is on one of the backlogs of our rules that we are 
working on.
    Ms. Norton. Well, Mr. Fugate, I would ask you, to within 30 
days, submit to the chairman where cost estimates--understand 
that this one is not a suggestion of the committee. This is a 
matter of statute. Where it appears in your list of regulatory 
priorities within 30 days to the chairman, and I would ask the 
chairman to share that with me, and I would move on.
    Another inefficiency we found was truly astonishing, Mr. 
Fugate, and that was what I will call dual consultants. The 
taxpayers would be amazed to know that they pay for a 
consultant from FEMA, and a consultant from the State for 
estimates, and of course, everyone goes out to get their best 
consultant to provide an expert opinion on costs. This sets up 
an adversarial court-like process, not mandated by the statute, 
never conceived by the statute, costly because you have got to 
pay for the State's consultant. I asked you and I have to ask 
you now, what steps have been taken to move to a system where 
appropriate which would allow the parties to get together and 
decide to use a single consultant, saving the taxpayers money?
    Mr. Fugate. I would not agree to any consultant, but what 
we have agreed to and out of the arbitration hearings the judge 
directed us to, if we have a PE engineer, a licensed engineer 
of a State who is willing to sign on the record a loss or 
finding, we will accept that without putting in a second 
review.
    Ms. Norton. Excuse me, does that mean that the State does 
not have to--that the State has to abide by that choice as 
well?
    Mr. Fugate. It would be their engineer. But I will give you 
an example. Let us say we have a hospital that is a heavily 
damaged building. The question is, do we replace, repair or is 
it destroyed? If they have a licensed engineer saying the 
building is not repairable, we are going to take that. If the 
engineer signs off on that that it is not repairable, we will 
look at replacement versus trying to repair the structure 
versus bringing in a second team to look at that.
    Ms. Norton. Mr. Chairman, I take that to be that the 
testimony here has been that they now operate with one 
consultant if it is a licensed expert. If that is the case, 
then that right there cuts in half what the taxpayers have been 
paying. Thank you.
    Mr. Denham. Thank you. I now recognize Mr. Meehan for 5 
minutes.
    Mr. Meehan. Thank you, Mr. Chairman. Mr. Fugate, thank you 
for not only your time testifying here today but your long 
service in the first responder community. I think America has 
taken a new awareness of the significance and importance, and I 
think, of course, we all had our eyes opened on September 11th. 
There is so many aspects of that, but to me, one of the things 
having served in the aftermath as a Federal prosecutor, and as 
many observed, it was the remarkable difficulty of 
communications in the aftermath of that incident. Naturally, 
the unanticipated impact of what would happen once the 
interoperability of our traditional systems and the 
communications from towers to transmission lines went down. So 
I think we as a Nation went back to the bucket brigades. In 
effect, at that point in time, it was ham operators, radio 
operators that were establishing central communications for our 
system.
    The frustration is that a few years later we saw the same 
thing duplicated in Katrina in which, once again, although 
there was a suggestion that we had interoperability and we 
would be better prepared, there was physical damage done to 
towers and in the immediate aftermath the inability to 
communicate.
    What have we done in that time so that if we have a similar 
kind of incident which we can anticipate the infrastructure is 
going to be significantly damaged we can have real-time 
communications capacity that is better than the bucket brigades 
of the ham operators?
    Mr. Fugate. Well, sir, as it goes to the question of what 
is different, several things have improved and changed. I think 
one of the things is we are responsible as part of Homeland 
Security for doing disaster emergency communications. If the 
area of impact has lost their infrastructure and needs to have 
equipment brought in, we have the capability to bring in and 
set up communications and work across a wide range of systems 
to get initial interoperability back up, but that means it has 
to get to the area, so there is a delay from the initial 
impact.
    Mr. Meehan. What kind of delay would that be and how 
significant is the communications capacity once it comes in?
    Mr. Fugate. It is not more--it really comes back to drive 
time to physically get in or do we fly the kits in? So it is 
just the transport time, and these are resources scattered 
across the country to get them in. Probably more important is 
the investment that has been made in interoperability, as an 
example in Congressman Long's State we had participated in a 
national level exercise which was an earthquake a week before 
the tornadoes hit, and at that time, the Governor was 
demonstrating their statewide radio system which had used 
Federal dollars to develop interoperability, and we did not 
know a week later, not even a week later they would be using 
that very system in Joplin when that city got hit to provide 
backup communications to responders because of the impacts 
there.
    Mr. Meehan. But are they still built again on existing 
infrastructure like cell towers and other kinds of transmission 
lines that roll through?
    Mr. Fugate. Well, again, when you look at the public 
safety, those are generally Government-owned systems, and so we 
bring the systems to augment that. We also work very closely 
with the private sector through the national communications 
system to get those systems back up. Sometimes it is damaged 
infrastructure. A lot of times it is not only infrastructure, 
it is bandwidth to provide communication. So in the initial 
hours, our first focus will always be on the public safety 
responders, getting them back up, but one of the other things 
we have learned that is also important is getting the public 
back up, and that is where the private sector really has, I 
think, made improvements in their ability to bring in mobile 
units, get communications up, and add capacity for cellular 
communication, wireless communications in areas.
    Mr. Meehan. That is critical. That is one of the things. I 
am asking these questions for a variety of reasons, but not 
least of which I have had the opportunity to visit within my 
own district a group called the Ragant Corporation, who has 
been at the cutting edge of communications for the military. 
They have had the ability, of course, into areas in which there 
is armed conflict, to quickly be able to enable there to be 
communications. It is a system called Bread Crumbs. The 
concern, as I asked them about, if they have had communications 
with FEMA. They did. They talked to FEMA 6 weeks before Katrina 
and were told we have all the communications we need, and then 
obviously we found out the inability to do that.
    So how do we keep certain that we are accessing the latest 
technology and capacity that is available so that we know that 
we can find communications capacity in that critical window, 
not the 48 hours that it is going to take to drive or fly it 
in, but in those 2 or 3 hours where people may be at peril?
    Mr. Fugate. I think, again, one of the issues the Post-
Katrina Emergency Management Reform Act established was, we had 
to do more than just talk about interoperability and provide 
grant funding, we need to have States devise their plans, we 
need to have deployable capability which was assigned to FEMA 
for the disaster emergency communications, and we continue to 
look at how do you start using things that, again, we still 
face the fact that most smartphones have more capability than a 
lot of our public safety radios.
    So as we continue to transition to bringing that into the 
public safety world, how do we continue to enhance wireless 
networking, both for the public safety as well as the public?
    Mr. Meehan. But we know--and I will close out, Mr. 
Chairman, in a second. But that was the great frustration was 
simply in New York the wireless network being overloaded with 
family members trying to contact other family members, and so, 
you know, we have got a very, very precarious network in the 
immediate aftermath. Well, thank you, Mr. Fugate, for all of 
your work, hard work in putting that together. Thank you, Mr. 
Chairman.
    Mr. Denham. Thank you. Mr. Long?
    Mr. Long. Thank you, Mr. Chairman, and I would first like 
to thank you, Chairman Denham, for letting me sit in on this 
hearing today and appreciate you, even though I am not on this 
subcommittee. And I am from Springfield, Missouri, which is 70 
miles from Joplin, Missouri, as you know, Mr. Fugate. Branson, 
Missouri is also in my district. Two or three weeks before the 
Joplin situation we had had terrible flooding in Branson, and 
FEMA had started to set up shop down there, and I got a call 
from your people a week or 10 days before Joplin saying that 
they understood I was not happy with FEMA in the Branson 
situation, and I said, well, it is not that I am not happy with 
FEMA. I am not happy that the Governor waited a full week in an 
obvious situation where people have 4\1/2\ to 8 feet of water 
in their homes to have declared it a disaster area, and so when 
Joplin then hit, I was kind of on FEMA's radar, I think they 
wanted to make sure if I was happy. I stayed happy, and the 
morning of the morning after the tornado that hit on a Sunday, 
I was in Joplin at the light of day, walked in the firehouse 
down there.
    There was 400 to 500 first responders standing around 
waiting to go to work. Unfortunately, we had weather move in 
that morning, hail storm, 60 mile-an-hour winds, so they had to 
kind of wait out a couple of hours while we knew there were 
people that we could go out and rescue that morning. Shortly 
thereafter, I got a call from the White House liaison for FEMA, 
and they explained that FEMA would be on the ground shortly in 
Joplin, and I said no they are not.
    And they said, what do you mean? I said, well, they are 
already here, they got here about 10 minutes ago. So you all 
from that point on have been excellent in the Joplin situation. 
Mr. Serino came in, I think, a day or two before you came in, 
the President has been there, and it is truly, truly 
indescribable, it is something that you cannot describe.
    Representative Akin came down a week ago, and after 
everything that has been on TV and the situation in Joplin and 
everything, he still looked at me a couple days ago and he 
said, when I went to Joplin it was 10 times worse than anything 
I could imagine. And it is a town of 50,000 people. The 
devastation is three-quarters of a mile wide by 6 miles in 
depth, and it is clear cut. It is absolutely clear cut. Eight 
thousand homes, one hundred fifty-nine people lost their lives 
in a town of 50,000 people, 8,000 homes, 159 lives lost, not to 
mention the ones who are still in hospital and have various 
problems, 500 businesses destroyed, 54 percent of the school 
capacity. They are going to start school here in a few weeks. 
Fifty-four percent of the school capacity gone, and, but I 
just, in those dire circumstances, I do want to thank you.
    I was down there 2 weeks ago with the Army Corps of 
Engineers which is in charge, of course, of the debris removal, 
and they made a comment as I was driving around that they have 
never seen HUD, FEMA, Army Corps, economic development, all the 
different Government agencies that are getting along. I think a 
lot of that has to do with the attitude of the people in Joplin 
and southwest Missouri pitching in and helping themselves, but 
I just cannot say enough. One of the city leaders, city fathers 
of Joplin told me a couple days ago, you need to tell FEMA, 
because I told them we are having this hearing this morning, 
they said you need to tell FEMA they are damaging their 
reputation here. So you are doing better than you are supposed 
to be doing.
    I do have one question for you. There has been--the city 
leaders in Joplin are trying to find out on this 90/10 split 
with the Federal Government, they have asked for 100 percent, 
and I do not know, I am sure they want the 100, but the 
question is, they would kind of like to know, and they have 
been trying to get an answer on that. Do you have any idea when 
they may have a yes-or-no answer on that?
    Mr. Fugate. Well, there is two parts. The first part is in 
the areas we are doing debris, that is at 90 percent for the 
first 75 days, but for the rest of the cost, under the CFR, 
that is actually based upon a per capita impact to the State of 
$127, which I think for Missouri is over $700 million. Another 
part of that is we look at the existing disasters that have 
occurred in the past 12 months as additional factors, and as I 
talked to Senator Blunt about this yesterday, I talked to our 
Federal coordinating officer, and she thinks probably in about 
the next 60 to 90 days, we will have enough of the project 
worksheets written to have some idea what the total cost of the 
Joplin impacts as well as some of the other disasters, and that 
would give us an indicator whether we would be in the point to 
make the recommendation of 90/10, but in our rules within the 
CFR, we would only make the recommendation for all categories 
of public assistance at 90 percent based upon a statewide per 
capita of $127 statewide.
    Mr. Long. OK, OK. Well, I appreciate. Again, I just want to 
thank you and thank everyone that has come to see the Joplin 
situation because to a person, when they see it, my chief of 
staff included, which came down a couple of weeks ago, even 
though I had been ballyhooing it ever since the day it hit and 
telling how devastating it is, I do not know how many F5s have 
hit this country, but the number is very small, and the ones 
that have stayed on the ground over a quarter mile F5s are 
extremely rare, and this F5 stayed on the ground for 6 miles, 
and I also went out to with the Army Corps a couple weeks ago 
to the vegetation, whatever they call it, but it is where you 
take the big 100-, 150-year-old trees that are no longer there, 
the huge, huge stumps, you see trucks going down the road with 
huge stumps on them, huge big massive trees. They have chips, 
chipper shredders set up, they have 20-, 30-foot high piles of 
shreddings from all those trees lost over a tremendous area.
    Again, I just want to reiterate how much we do appreciate 
your efforts and your help and the fact that you came there and 
saw for yourself. I know when Secretary Napolitano came in, her 
comment was the same thing. She has seen a lot of disasters, 
and she had never seen anything to equal Joplin, Missouri. I 
appreciate it. Thank you, again, Mr. Chairman, for letting me 
sit in.
    Mr. Denham. Thank you, Mr. Long. Mr. Fugate, we understand 
the new temporary housing units that meet FEMA's new standards 
will cost between $44,000 and $46,000, somewhat higher than the 
costs for housing units used in earlier disasters. Under what 
circumstances would FEMA provide temporary housing units as 
opposed to some other less costly housing units?
    Mr. Fugate. Well, Mr. Chairman, we have done about 400 so 
far, and I expect some more in more recent disasters. Our first 
goal is, again, providing renters assistance if there is 
available housing in the area. If you go back to last year's 
floods in Tennessee which impacted several thousand homes, we 
were rather successful in that event of just doing renters 
assistance. We did not have to do temporary housing. But with 
these tornadoes, particularly in smaller or rural communities 
there may not be available housing. Again, the preference of 
the State is not to have people move long distances away from 
their communities, so we will do that. Again, in the tornadoes 
across the southeast, there were so many housing units 
destroyed, there just was not enough rental hotels and motels 
to provide a solution until homes could be rebuilt. So we do 
this as a tiered approach, always looking at the quickest way 
to help people is with renters assistance if there is someplace 
to stay. In the absence of that, we will look at providing 
relocation for people, and then our third option would be 
looking at temporary housing units.
    Mr. Denham. And how about as far as somebody whose home is 
inhabitable, just doing the patch work to get it habitable for 
a short period of time before the----
    Mr. Fugate. That is a program that we worked with the Corps 
of Engineers. Previously we had a program called Blue Roofs 
which was a rather expensive program to put a tarp on a roof, 
but that would not always dry out a home and get people in, 
there may be busted windows, a door may have been damaged, and 
we realized that for the cost of doing that, we could 
incrementally increase some additional funds and get people 
back in their homes if we do some expedient repairs. So we have 
a program with the Corps where we will do expedient repairs, 
this is not permanent work, but it provides enough repairs, if 
possible, to get people back in their home, to get power back 
on until permanent repairs are made. So we do have that 
program. But as Congressman Long will tell you, there were not 
a whole lot of homes in Joplin that were only partially 
damaged. It was pretty much either destroyed or not heavily 
impacted, but we think this would be a more viable option, 
particularly in hurricanes where we do see widespread damages 
that if we could do these expedient repairs it would reduce the 
cost to the taxpayer as well as get people back in their homes 
quicker.
    Mr. Denham. Thank you. When do you believe the Bottom Up 
Review for the public assistance program will be completed?
    Mr. Fugate. The short answer is I do not think we will ever 
be done. I think it is going to be a continuous process. What 
we have run into as we started this process, and we asked our 
subject matter experts, they were not quite grasping what I was 
looking for, and they began incrementally looking at pieces of 
this. So we reset it to go back and again ask the fundamental 
questions. What does the Stafford Act say? What does the CFR 
say? And then what do our rules and policies that conflict or 
do not make sense or add layers? We have already eliminated or 
have actually deleted a lot of policy guidance that we felt was 
duplicative, not clear or not relevant, so part of this was 
going through just the policy pieces and looking at what things 
should be eliminated.
    Then as we go through that, it is to look at some 
fundamental structures such as cost estimates. Or the other 
question is, right now we do debris literally in a manner that 
is very costly to monitor, but it is done because it is not a 
very easy thing to do cost estimates on, but is there a better 
way to do debris as a lump sum versus doing it as a 
reimbursement for the work being done?
    Mr. Denham. Does the Bottom Up Review also include an 
examination of the Stafford Act?
    Mr. Fugate. Yes, it does. Again, I have been pretty 
consistent with this, Mr. Chairman, and it sounds like a broken 
record, but the Stafford Act has a lot of inherent flexibility 
that it is our own policies that prevent us from doing things. 
An example is going on private property removing debris is 
permitted under the Stafford Act, but generally in our policies 
and regulations we have precluded that, and we do not normally 
provide that as a way of doing it. That is why when we looked 
at the damage in some of these recent storms, we said, you 
know, the Stafford Act says we can do this, we think there is a 
compelling case to do this, we think it is the thing that needs 
to be done to get on private property to get the debris 
removed, so we authorized it. So we start out with what does 
our policies and our rules and our oftentimes practices do that 
we can adjust first before we look at the Stafford Act?
    Mr. Denham. As you go through the Stafford Act, do you also 
develop recommendations for legislation that is needed?
    Mr. Fugate. Yes, sir, but again, I am finding less that is 
specific to the Stafford Act that is more specific to our 
internal, our rules, and to the CFR, and again in many cases, 
there is inherent flexibility in the Stafford Act that has been 
precluded because of practice or by policy or rules. So we 
start there before we look at the Stafford Act. We are still 
working through a lot of that, and again part of this has been 
is to build a rulemaking shop to actually get up a team that 
can make an effective calendar of the things we need to change, 
get rid of the stuff--we actually have some of our policies 
that date back from the 1970s and 1980s that have not been 
updated and reviewed because we don't have a central shop doing 
nothing but rulemaking, and so that is one of the things that 
we are going to build in fiscal year 2012 out of our fund base 
to have a rulemaking capability that gets us through a process 
that has not been--quite honestly in many cases, it has been an 
ad hoc process spread out through the Agency with no central 
point of coordination.
    Mr. Denham. Thank you. Mr. Long?
    Mr. Long. I don't have anything.
    Mr. Denham. Another question, mitigation obviously can save 
lives and money. By mitigating against disasters, there are 
less casualties and less damage to people's homes and 
businesses, however post-disaster mitigation funding often 
becomes available well into or after the rebuilding process. 
What steps have you taken to ensure mitigation is a meaningful 
part of the recovery following a disaster?
    Mr. Fugate. Mr. Chairman, I will talk about some sections 
that your staff probably know very well. But when we have a 
public assistance disaster declaration and we are in the 
rebuilding process, there is a section of the Stafford Act, 
Section 406, that provides that not only can we replace--let us 
talk about fire stations. There were several stations in Joplin 
that were impacted, one which was heavily damaged. The way that 
we would normally go in there is if that was not an insured 
building, we would provide a replacement cost and it would have 
to be built to code. One of the things we can do is while we 
are rebuilding it, we can actually mitigate with cost-benefit 
analysis and upgrade the building beyond code. So one of the 
things that we are really focused on is life safety in a lot of 
these public infrastructures is making sure that as we rebuild 
schools, we rebuild critical infrastructure, we rebuild the 
safe rooms and other things to harden these buildings as we are 
rebuilding them so that the other section, which is 404, which 
is the mitigation dollars the State gets on top of their repair 
and replacement costs, can go to other activities. But as much 
as we have damaged infrastructure, we want to aggressively make 
sure that as we rebuild them where the opportunities are and 
where it makes sense and it makes--the cost-benefit analysis 
makes sense and we are not spending a million dollars to save a 
dollar but where it makes sense or particularly in critical 
infrastructures like fire stations, that we don't just look at 
merely replacement or building it back to code. We look at how 
do we harden that building and use those mitigation dollars 
under Section 406 to harden the building.
    Mr. Denham. As you know, the Emergency Management 
Assistance Compact that facilitates mutual aid among States is 
up for reauthorization. EMAC has been funded up to $2 million 
annually.
    How critical do you believe EMAC is in our response and 
recovery system?
    Mr. Fugate. Mr. Chairman, in these tornados, again if this 
was 2001, I think we would probably end up deploying about a 
third of our national Urban Search and Rescue teams, which is 
another part of what you looked at in reauthorization. Because 
we had such strong intrastate and interstate, which is the EMAC 
component where they are able to move resources across State 
lines, we were not required to deploy any of the national 
teams. Meaning that if there had been another disaster the day 
after Joplin, 27 of those teams would have been available to 
respond. The one team that wouldn't was Missouri 1, which was 
activated under the Governor's authority. But they also brought 
teams in from the neighboring States that allowed them to 
respond quickly to that disaster. Those 500 responders that 
Congressman Long talks about came from the area and it was all 
done through mutual aid.
    Again, this is why we look at these teams as national 
assets, why we look at our local and State responders and our 
county and city emergency managers as national assets. The 
Emergency Management Assistance Compact gives us the ability to 
leverage resources across the Nation, not just those that are 
specific to the Federal Government. And that meant that in 
these tornados, as bad as they were, the initial response and 
search and rescue took place in hours in the first couple of 
days. We were able to focus almost immediately upon going into 
recovery and supporting that. And I think this is the strength 
of looking at our State and local governments as part of 
national assets and using tools such as the Emergency 
Management Assistance Compact to share these resources by 
Governors across State lines, independent of a Federal response 
where oftentimes they are quicker, faster and the cost is 
actually lower to the taxpayer and it is money we have invested 
in our homeland security grant dollars to build this 
capability.
    Mr. Denham. And how about for preparedness grants? Which 
preparedness grants leverage the most local funds and provide 
the most capability for the least amount of Federal funds?
    Mr. Fugate. That would be the emergency management 
preparedness grants, which are the dollars that are provided to 
the States and often times fund local emergency management 
programs. This is a program that is a 50/50 cost share. So 
there is a lot of local and State investment in these programs. 
And to be quite honest with you, Mr. Chairman, without these 
funds, I think we would have a less robust capability at a 
local and State level. I think our response to these most 
recent disasters would have been slower because we wouldn't 
have had the base of the expertise at the local level managing 
these responses. And it would ultimately cost us more in loss 
of lives and the impacts of the recovery because we would have 
to bring everything from the outside to begin the response 
versus building upon the local expertise, the local community, 
adding to that and speeding up that response and recovery.
    Mr. Denham. And lastly, last Congress, members of this 
subcommittee introduced the Integrated Public Alert and Warning 
System Modernization Act, and we are working to refine that 
legislation and reintroducing it again this year. In the 
hearings last Congress, concerns were raised as to whether FEMA 
was effectively developing this system with input from experts 
and other stakeholders. You talk about what FEMA is doing to 
ensure IPAWS not only stays on track, but also how key 
stakeholders are involved in its development.
    Mr. Fugate. Mr. Chairman, there is two key parts to IPAWS 
this year. The first one is we are doing our first national 
activation of the emergency alert system. This has never been 
done in all the history of the program, which is a key 
cornerstone of IPAWS. Because we are using the common alerting 
protocol to do these activations, we have now, working with our 
partners at the FCC, but more importantly working with the 
wireless community, are moving towards the ability to now 
provide notifications to cell phones that are based upon their 
location without them having to preregister or sign up.
    This program is being kicked off in New York. We are also 
working in DC. And ultimately we want to expand it out so that 
cell phones, as part of the emergency alert system, which is 
part of IPAWS, would be able to receive alerts in areas based 
upon your location. You do have the ability to opt out of it. 
It doesn't track your location. We don't know where you are at. 
But it does provide the ability to broadcast a warning to the 
phones in the area and alert people of things such as the 
tornados and floods we have seen this spring.
    Mr. Denham. Thank you. Mr. Carnahan, do you have questions?
    Mr. Carnahan. Thank you, Mr. Chairman. And I want to thank 
the witness for being here and for what your Agency does. A 
couple of things I wanted to cover. First starting out with the 
disaster in Joplin, Missouri. I am glad to be joined here by my 
colleague from Missouri, Congressman Long. And I appreciate all 
the work he has done in this regard as well. But also the more 
recent flooding emergencies up and down the Mississippi River. 
I wanted to ask kind of a broader question to start with, in 
terms of the lessons learned by FEMA in these recent disasters 
and how can we incorporate those into this reauthorization 
effort we are going through here in Congress. Again, to learn 
from those lessons, you know, what went well, what didn't and 
how we can improve.
    Mr. Fugate. I think--and again, some very broad 
observations is, what worked well was not building a Federal 
centric response but building response based upon local and 
State with Federal support and working as a team. I think that 
in many of these responses the reason we--as devastating as 
they were, we did not see issues that had been raised elsewhere 
is a tremendous response not only from Government, but also 
recognizing the value of the volunteer and NGO organizations of 
the private sector. And that is one area since I have been at 
FEMA we have been working on, is to expand a team and not just 
look at what Government can do, but also incorporate and give a 
seat at the table. We are not abandoning our responsibilities 
as FEMA to do our job. We also recognize that there are many 
members of the community that have key roles they can play. And 
it is important that we provide at the Federal level a place to 
integrate those responses as we see being done at our local and 
State level every day.
    Another one that I think is important--and this is a 
mitigation issue--is reenforcing in those areas that have 
significant risks to the tornados, the importance of safe 
rooms. As was pointed out with the National Weather Service and 
as you see the devastation, even with warnings, we had a large 
loss of life, which points out the challenge. Even with 
warnings, if people don't have somewhere safe to go, to get 
there quickly, we may not always be able to reduce the loss of 
life. So particularly in facilities such as schools and 
critical public safety buildings, I think it is important that 
we look at how do we harden those buildings and then also 
provide to homeowners who rebuild their homes opportunities 
either through Small Business Administration mitigation loans 
or mitigation dollars the States have to provide safe rooms in 
residential structures.
    Mr. Carnahan. And to follow on that, we have had a lot of 
discussion in the aftermath of these disasters in terms of 
preparedness. The difference in cost in terms of--I have seen 
several figures out there. I think maybe 7 to 1, the difference 
in cost. If we can address some of these issues on the front 
end in the preparedness area versus having to do things more 
expensively afterward. Again, talk to me about some of those 
strategies and how we can do better on the front end of 
disasters.
    Mr. Fugate. I think what it goes back to is what we look at 
in our mitigation funding, I think the numbers that I--that 
generally we use at FEMA is about a 4 to 1 return on the 
investment for mitigating the effects of disasters. And again 
it is--the challenge is if you always knew where the disasters 
would be, it would be real easy to fund. This means it has to 
be a more systemic approach. And I think it has got to be a 
combination of not only our Federal dollars investing in 
mitigation practices, but also recognizing that State and local 
governments through land use and building codes can also 
significantly reduce the impacts of disasters.
    My home State of Florida, when we adopted more stringent 
wind codes, we saw the difference in the 2004 hurricanes. Homes 
side by side, same neighborhoods, literally built to a stronger 
wind code had roofs; those that didn't, were heavily damaged 
and not occupiable. And that drove the cost up for everybody's 
response. And again--so we know that things like building code, 
land use planning can reduce the cost of disaster as well as 
strategically targeting our limited Federal dollars to mitigate 
known hazards.
    Mr. Carnahan. I have got one more if we have got time, Mr. 
Chairman. The last issue I wanted to talk about was the Urban 
Search and Rescue task forces that are throughout the country. 
I understand we currently have 28 comprised of firefighters, 
engineers, medical professionals with special training in 
search and rescue. Obviously these folks are coordinating with 
State and local resources.
    How can we best improve that coordination? Are we 
identifying best practices on how to do that? And you talk 
about how we can--the status of that and are there steps that 
we can do to even improve that?
    Mr. Fugate. I think again we saw some unique opportunities 
in the past year, both the response to Haiti. And we sent teams 
to Haiti as part of support, USAID, as well as the teams that 
went to Japan and bringing those lessons back. But the other 
thing I think that the Urban Search and Rescue community that 
we have been working in--although again the funds are--it is a 
finite resource--is to continue to work with that. Because as 
you point out, the teams themselves are local and State 
responders. They are not Federal employees until we activate 
the teams. What we provide is the equipment and training. So we 
look at some of the unique issues they have raised, 
particularly in dealing in WMD environments where we may have 
toxic chemicals and other things. We don't currently equip the 
USAR teams with that type of equipment. But we have another 
program, the Preposition Equipment Program, that does have that 
equipment.
    So one of the things we worked out with the USAR teams is 
the ability to deploy those preposition equipment caches with 
the USAR teams if they need additional protective equipment. So 
we are utilizing resources we are already having, that have 
already been funded to meet some of those requirements. But we 
do do an active lessons learned program with the USAR teams, 
not only for the 28 that are federally recognized, but also the 
vast number of teams that are out there at the State and local 
level that are also USAR capable, and provide those lessons 
back to that community from our lessons, particularly in Haiti, 
some of the things we saw there.
    Mr. Carnahan. Thank you very much. Thank you, Mr. Chairman.
    Mr. Denham. Thank you. One final question before we go to 
the second panel. Not long ago, FEMA signed an agreement with 
the Red Cross to have the Red Cross to take the lead in 
providing emergency shelters and other care. How is that going?
    Mr. Fugate. I went to a shelter in Joplin that the Red 
Cross was operating that was taking care of people that had 
medical needs. They had a co-located pet shelter that they had 
worked out with the local humane society to staff. They had the 
Adventists and the Southern Baptists in there providing 
programs for infants and children. And again, I think under the 
leadership of the Red Cross, they have recognized that to be 
successful they have to bring in more team members. So we are 
seeing--and again are working with our Red Cross partners and 
others that provide shelter services to continue to do that. 
But probably again, this is always based upon people's 
willingness to give and volunteer to the volunteer 
organizations. So we also recognize that we have to work hand 
in hand, whether it be supplies or the ability to support them 
with resources.
    But in the recent disasters, our Red Cross partners and 
other volunteer agencies not only have been sheltering, but 
they have been feeding and providing mass care. And it is 
actually--Mr. Chairman, you kind of just have to go see it. 
When you have got folks like the Southern Baptists with a big 
cook truck cooking, putting meals into Red Cross containers and 
having those Red Cross vehicles then take it out to a Salvation 
Army canteen to feed people or to a church or other community 
group, you get some sense of the capabilities the volunteer 
community brings to the team and why we need to leverage those 
resources and not duplicate, but be ready to support and fill 
gaps if needed.
    Mr. Denham. Thank you. And at some point, I would like to 
travel with you and see firsthand through the same eyes on some 
of the challenges that you are facing. Thank you for your 
testimony today.
    Now we will have the second panel.
    Mr. Fugate. Thank you, Mr. Chairman.
    Mr. Denham. Thank you.
    I now call our second panel of witnesses: Mr. Jerome 
Hatfield, Deputy Superintendent for Homeland Security, New 
Jersey State Police; Cline Griggs, Tribal Council member of 
White Mountain Apache Tribe; Ms. Phyllis Little, Director of 
Cullman County, Alabama, Emergency Management Agency; and Mr. 
Chad Berginnis, Associate Director, Association of State 
Floodplain Managers.
    I ask unanimous consent that our witnesses' full statements 
be included in the record. Without objection, so ordered. Since 
your testimony has been made part of the record, the 
subcommittee would request that you would limit your oral 
testimony to 5 minutes or less.
    Mr. Hatfield, as your seat becomes available, I would ask 
you to begin your testimony.

TESTIMONY OF JEROME HATFIELD, DEPUTY SUPERINTENDENT OF HOMELAND 
     SECURITY, NEW JERSEY STATE POLICE, NATIONAL EMERGENCY 
   MANAGEMENT ASSOCIATION; CLINE GRIGGS, DISTRICT 4 COUNCIL 
MEMBER, WHITE MOUNTAIN APACHE TRIBE; PHYLLIS LITTLE, DIRECTOR, 
   CULLMAN COUNTY, ALABAMA, EMERGENCY MANAGEMENT AGENCY, AND 
   MEMBER, U.S. COUNCIL OF THE INTERNATIONAL ASSOCIATION OF 
    EMERGENCY MANAGERS; AND CHAD BERGINNIS, CFM, ASSOCIATE 
       DIRECTOR, ASSOCIATION OF STATE FLOODPLAIN MANAGERS

    Mr. Hatfield. Thank you, sir. Thank you, Chairman Denham, 
distinguished members of the committee, for the opportunity to 
testify today on behalf of the National Emergency Management 
Association, better known as NEMA.
    NEMA represents the emergency management directors of all 
50 States, Territories and the District of Columbia. Members of 
NEMA are responsible to the Governors for many 
responsibilities, including emergency preparedness, homeland 
security, mitigation, response, recovery activities for 
natural, human-caused or terrorism-related disasters.
    The issues specifically surrounding recovery from large-
scale disasters are not easy to tackle, but we remain 
encouraged on how the committee has continued to demonstrate 
support to FEMA's programs. In terms of FEMA reauthorization 
issues, the most pressing issue for NEMA at this time is the 
much needed reauthorization of the Emergency Management 
Assistance Compact. Since 1996, EMAC has helped States 
coordinate mutual aid efforts and the compact has only grown in 
size and grown in impacts.
    For example, 2009 spring flooding in North Dakota and 
Minnesota resulted in States deploying equipment, sandbags, 
over 1,000 personnel to North Dakota. In all, 700 plus National 
Guard personnel, over 300 civilians were sent to assist via the 
compact. Recently, over 600 personnel have been deployed in 
response to floods and tornados in Missouri, North Dakota, 
Nebraska, South Dakota, Mississippi, Alabama and Tennessee. The 
investment in EMAC stands as a relatively minimal one for 
maintaining a proven national emergency response capacity. All 
members of EMAC rely on the compact as an asset in the response 
and recovery arsenal.
    The tools available to emergency management directors, 
however, extend far beyond mutual aid. After the response phase 
comes recovery. And over the years, recovery has proven to be 
elusive and difficult to manage. While FEMA provides a great 
deal of assistance as we make the transition from response to 
recovery, there are still some issues which need to be 
addressed.
    NEMA remains optimistic in FEMA's Bottom Up Review of the 
Public Assistance Program. After an original review, FEMA 
restarted the process. According to the administration, the 
goal is to reduce the administrative burden and overall costs 
of the Public Assistance Program. To date, NEMA has provided 
informal comments to FEMA which were discussed through the 
National Advisory Council process. We believe FEMA is currently 
conducting a Phase II review of this process. The Public 
Assistance Program remains a vital tool to emergency 
management, and we remain encouraged by FEMA's commitment to 
this process.
    A recently evolving challenge is in regard to the 
functional needs, support services decisions made by the 
Justice Department. Issued in November of 2010, the functional 
needs, support services guidance laid out how general 
population shelters must accommodate those with functional 
needs. NEMA and States were concerned the requirements could 
involve costly changes to general population shelters, which 
could ultimately reduce the number of shelters available. In 
today's economic climate, most State and local governments 
simply cannot afford major and costly alterations to existing 
shelters.
    FEMA and the Department of Justice briefed NEMA members of 
the status of the initiative at our annual conference, but the 
agencies provided conflicting information. NEMA has requested 
clarification and has been told FEMA General Counsel and 
Department of Justice Disability Section continues working 
towards a solution.
    All the programs mentioned above are key components to a 
viable effective recovery structure within FEMA, but 
integration in the diversity of these programs and long-term 
recovery planning is difficult. While FEMA has begun to address 
this by putting together a Long-Term Disaster Recovery Working 
Group, which facilitated the development of the National 
Disaster Recovery Framework, there remains much unfinished 
work.
    As demonstrated during the recent storms throughout the 
southern United States, recovery begins immediately and support 
from the Federal Government must easily fit into the plans and 
processes on the State and local level to ensure effectiveness.
    Some of the programs outlined throughout this testimony 
need reauthorization, while some simply require inquiries from 
Congress. Hearings such as this represent vital steps towards 
building a more effective recovery system.
    Thank you again for the opportunity to testify. I look 
forward any questions that you may have.
    Mr. Denham. Thank you, Mr. Hatfield.
    Mr. Griggs.
    Mr. Griggs. Good morning. My name is Cline Griggs, 
Chairman, subcommittee members and guests. I am a member of the 
White Mountain Apache Tribe. I live on the reservation. Due to 
the limited time in gathering information for today's hearing, 
some of the testimony I am providing today will follow up with 
additional information.
    The Fort Apache Indian Reservation is home to the White 
Mountain Apache Tribe. A federally recognized Indian tribe, the 
tribe's total enrollment is 15,500 with approximately 93 
percent of enrolled tribal members. The majority of the 
population lives in and around White River with the seat of our 
tribal government, with others residing in other eight 
communities.
    Responding to emergencies is a total tribal effect. The 
emergency response coordinator, under the provision of the 
tribe's emergency response plan, mobilizes agencies and 
organizations and communicates with external agencies. The 
White Mountain Apache Tribe has its own tribal law enforcement, 
tribal fire department, with forest fire response, capable with 
firefighters, which is known as the what hotshot team who 
recently joined State and national efforts in fighting the 
Wallow Fire. The White Mountain Apache Tribe also has its own 
emergency medical response and hospital. The emergency requires 
a widespread response. Typical are the result of wildfires, 
flooding and snow storms. Wildfires, such as the recent Wallow 
Fire and the adjacent national forest, destroyed vegetation and 
by denuding the land increased runoff and flooding from summer 
monsoon rain.
    The reservation, with the heavy snowstorm during the 
winter, during the near record snowfall of January 2010, the 
community of Cibecue, population of approximately 3,500, which 
is 60 miles away from White River, was affected very 
drastically due to no electricity which were without water, 
electricity for a whole week. The Locust Fire, which was 
involved, troubled forestry and the fire department and 
instructive protection efforts. Eventually the snowstorm was 
declared a State and national disaster. FEMA to date and has 
notified the tribe that all claims were settled--has provided 
$146,000 to reimburse the tribe for expense and damage to 
property that occurred. The last payment was at the end of 
April 2011. This was 15 months after the costs were incurred. 
The Locust Fire was never declared a disaster, so all costs of 
the fire was tribal.
    The White Mountain Apache Tribe comments and recommendation 
of FEMA's long-term recovery, individual assistance and public 
assistance are included in the written testimony and will not 
be detailed here. Additional information needed for these 
sections will be forthcoming.
    Lessons learned from these two disaster events are 
important. The time required for the State to mobilize for 
assessing the extent of the damage following by the delays of 
the coordination between the State and Federal Government and 
declaring a snow caused disaster are contributing factors in 
the lengthy time between the disaster in January 2010 and 
FEMA's payment received at the end of April 2011.
    The Locust Fire was a result in a closer working 
relationship between the tribe and Navajo County. Quick and 
total response is required to save lives and alleviate 
distress. Delays in the current system are in direct conflict 
with the need to move quickly and enforce.
    H.R. 1953 is strongly supported by the White Mountain 
Apache Tribe and other American Indian tribes in Arizona. The 
bill would amend the Robert T. Stafford Disaster Relief and the 
Emergency Assistance Act to authorize Indian tribes to directly 
request the President for a major disaster or emergency 
declaration. It has been a priority of Indian Country for over 
a decade and upon enactment to treat Indian tribes as the 
sovereign government that they are. In Arizona, a lot of the 
FEMA Region 9 office, this new 2010 tribal policy seems to be 
misguided in its implementation. States do not have 
jurisdictional authority on tribal lands, but are encouraged to 
be the entity to deliver grants, training and support as 
authorization to the Federal agency that has the trust and 
responsibility to American Indian nations. FEMA grant funding 
shall be directly to tribes as a sovereign government, not to 
the State.
    The White Mountain Apache Tribe has become dependent on 
grant funding as they struggle to recover from the effects of 
the recent recession. When the recession hit America, the 
reservation's unemployment went from 33 percent to an estimated 
65 percent, leaving a bothersome 51 percent of the 
reservation's population living below the poverty line. But the 
responsibility of the emergency response to disasters, direct 
funding from FEMA and other Federal agencies become impossible 
when faced with the staggering cost of disaster relief and cost 
sharing requirements.
    Thank you.
    Mr. Denham. Thank you. Ms. Little.
    Ms. Little. Chairman Denham and distinguished members of 
the subcommittee, thank you for allowing me the opportunity to 
provide testimony on this important topic. I am Phyllis Little, 
Director of Emergency Management for Cullman County, Alabama. I 
am a member of the International Association of Emergency 
Managers and am providing this statement on their behalf.
    We appreciate the support this subcommittee has provided 
for the Emergency Management Performance Grant Program, the 
Emergency Management Institute, and for strengthening FEMA. 
Cullman County has a population of 80,406 residents. The county 
is located in central north Alabama. Primary businesses in the 
area are agriculture based. The tornado outbreak on April 27th 
impacted the entire county.
    The cities of Hanceville and Cullman were hardest hit. The 
National Weather Service mapped five tornado touchdowns across 
the county, two being rated as EF-4s, with wind speeds up to 
200 miles per hour. Approximately 500 homes and 100 businesses 
were damaged or destroyed. Electrical power was lost to most of 
north Alabama for 5 to 7 days. We were fortunate to have only 
two lives lost. School buses would have been on their routes 
when the tornados hit had school officials not postponed the 
opening of schools. Collectively planning, training and 
exercising together benefited us greatly when the event 
occurred.
    We owe a great deal of credit for our ability to respond to 
the funding received from the Emergency Management Performance 
Grant. Our EMPG allocation, which is cost shared 50/50, 
provides funds to staff our office with two people, as well as 
assistance to maintain half of our outdoor warning sirens.
    Our two greatest challenges have been debris removal and 
unexpected financial outlays. Debris removal is a life safety, 
health and economic recovery issue. FEMA initiated a pilot 
program called Operation Clean Sweep in Alabama. The program 
has enabled affected property owners to apply for assistance to 
remove debris from private property in an effort to jump-start 
recovery. Given the extensive amount of debris, it is much 
needed but it has not been without its problems.
    These problems can be attributed to inconsistent and 
inaccurate information provided early in the program. Better 
coordination, along with clearly defined policies and 
definitions of debris and areas of operation provided upfront 
would be extremely beneficial.
    The actual program to assist residents with debris removal 
did not begin in Cullman County until approximately 10 days 
ago. We still do not have a complete list of eligible 
properties. The cost share changed as of midnight July 12th 
from 90/10 to 75/25. The State's request for an extension was 
denied July 12th. We urge reconsideration of this cost-share 
extension.
    Cullman County chose the Corps of Engineers to handle 
debris removal primarily because of the magnitude of damages. 
Getting a unit cost for debris removal from the Corps has been 
extremely difficult. This has proven problematic to local 
officials attempting to manage finances in these tough economic 
times. Given the uncertain financial obligations, Cullman 
County made the decision on Tuesday to terminate the Corps work 
in their jurisdiction as of July 29th and terminate 
participation in Operation Clean Sweep. This is strictly a 
financial decision.
    FEMA individual assistance has been delayed due to 
confusion over the meaning of denial letters directing 
applicants to complete SBA loan applications. Many did not 
complete the process. The SBA deadline is July 17th. I received 
the information late yesterday that FEMA has recognized the 
problem and is sending community relation teams door to door to 
assist applicants through the process. We applaud FEMA for 
assigning a liaison to each county. Locating the joint field 
office closer to the disaster and the creation of division 
offices in the affected areas has aided in recovery efforts. 
Local officials will be meeting with FEMA to discuss available 
options, including possible assistance under the Community 
Disaster Loan Program. Given the loss of tax base and financial 
difficulties, this assistance could be vital to recovery.
    In conclusion, we appreciate the improvements made by FEMA. 
We urge the extension of the cost share on Operation Clean 
Sweep since it had a slow start. We urge expediting funding and 
decisions under the Hazard Mitigation Grant Program to allow 
safe rooms to be integrated into rebuilding projects. We urge 
adequate funding for the Community Disaster Loan Program for 
our hardest hit communities. We urge better communication on 
individual assistance eligibility. We urge consideration of 
providing advanced funding to communities based on the 
estimated costs of a declared disaster. And we urge recognition 
that local officials are reluctant to incur financial 
obligations of unknown amounts.
    I will be happy now to answer any questions.
    Mr. Denham. Thank you. Mr. Berginnis.
    Mr. Berginnis. It is hard to imagine a more appropriate 
time for this hearing when we are debating what services the 
Federal Government should fund while at the same time 
experiencing an unprecedented number of disasters.
    Mr. Chairman, you noted in your opening remarks the large 
number of events that the United States has had in the first 6 
months of 2011. In fact, those events have resulted in $27 
billion in losses, which is double the 10-year average.
    Chairman Denham, Ranking Member Norton, and members of the 
subcommittee, I am Chad Berginnis and before you today on 
behalf of the Association of State Floodplain Managers, an 
organization of 14,000 individuals and 31 State chapters that 
work to reduce flood losses and preserve the natural functions 
of floodplains. As a former local official who administered a 
mitigation project in a community devastated by flooding and as 
a former State official overseeing hazard mitigation programs 
in Ohio, I am particularly honored to be here to explain how 
hazard mitigation programs that cut across the Federal 
Government work to reduce disaster losses, result in better 
economic vitality, and increase community resiliency.
    What is hazard mitigation? The simple definition is that it 
is any sustained action to reduce long-term risks from hazards. 
It can be a number of things from the standpoint of flooding 
during a disaster recovery. Hazard mitigation measures could 
include such things as elevating buildings in place, 
retrofitting them to protect against a certain level of 
flooding, removing them from hazard areas either by relocation, 
acquisition or demolition. It also includes enforcement of 
building and land-use codes, recovery and mitigation planning, 
natural restoration of flood storage areas, critical facility 
protection and planning construction of flood attenuation 
structures.
    Let me make three statements of fact that will frame my 
remarks. First, investments in hazard mitigation will always 
reduce the cost and misery in the long term to individuals, 
communities and the taxpayer. The widely cited 2005 study by 
the National Institute of Building Sciences concluded the 
projects funded by FEMA mitigation programs yielded $4 in 
benefits for every dollar of investment. Now, there are now 
instances where disasters are no longer declared in a community 
after an event because of mitigation.
    Second, mitigation is complicated, and in most situations 
there is not one solution to fix hazard issues in a community, 
and technical expertise is needed to understand the risk in 
mitigation options.
    Third, the window of opportunity to do the most mitigation, 
the time that people are most receptive is after a disaster.
    The two most common observations by our members about 
mitigation during recovery are, one, that not enough funding is 
generally available, the program is being oversubscribed; and 
two, the development, review and approval of a project takes 
far too long. To address these, ASFPM has the following 
recommendations which are detailed in our written testimony to 
result in more efficient recovery programs.
    First, FEMA must develop a framework for delegating the 
Hazard Mitigation Grant Program to capable States. Much like 
other provisions of the Stafford Act, this authority has 
existed now for 11 years, was part of the Disaster Mitigation 
Act of 2000. HMGP projects in a disaster recovery environment 
are developed by a community, reviewed by the State and sent to 
FEMA for review and approval. We could eliminate one entire 
step with true program delegation where FEMA's role is 
oversight, training and auditing.
    Second, State capability must be able to handle 
catastrophic and multiple back-to-back events. This is not just 
a FEMA responsibility. States also must have skin in the game. 
From the FEMA standpoint, though, one way this can be incented 
is to develop an ongoing funding mechanism similar to the 
Community Assistance Program under the National Flood Insurance 
Program.
    Third, the Federal Government under FEMA's leadership must 
have the ability to supplement State program capability with 
robust and timely technical assistance in a post-disaster 
environment. This expertise can help State staff develop public 
assistance and mitigation project applications, assist home and 
business owners on how to apply mitigation techniques, and 
perform needed analyses to understand the hazards and develop 
data so that appropriate mitigation techniques are used. Of 
specific importance to this process is to allow for extra code 
inspectors and permit officials to be reimbursed under the 
Public Assistance Program. Also, a mitigation review under 
Section 406 should be mandatory for every project worksheet. In 
fact, our members report and I have experienced that this is 
not consistently nor robustly done in every disaster.
    Fourth, there must be incentives and requirements to use 
and adopt best available data for reconstruction. One of the 
real tragedies in the recovery process of Katrina is that on 
the Gulf Coast today you can see rebuilt structures that with 
almost near certainty will be destroyed in future hurricanes. 
We can and must do better.
    Fifth, there must be better Federal interagency 
coordination before and during the recovery. Valuable time and 
resources are wasted when agencies are not on the same page. 
One promising program in this regard is the U.S. Army Corps of 
Engineer's Silver Jackets Program.
    Finally, all Federal recovery programs should incorporate 
hazard mitigation to the greatest extent possible. There are an 
array of programs in operation after a disaster and all of them 
should have a mitigation element. Again, investment in 
mitigation means reduced investment in future disaster recovery 
funding and savings to the taxpayer.
    Thank you.
    Mr. Denham. Thank you. We are going to have one round of 
questioning here. First of all, Mr. Hatfield. We are doing the 
reauthorization legislation.
    What do you think the key issues to be addressed in the 
FEMA reauthorization should be?
    Mr. Hatfield. We are going to reinforce the fact that the 
Emergency Management Assistance Compact is critical and it is 
essential. I think years ago, it was mentioned that the Nation 
is best prepared when neighborhoods are prepared. And as such, 
EMAC allows for intra- as well as interstate activities so that 
emergencies are actually something that is taken care of 
locally and not nationally. And so we would encourage that as 
the national mutual lead initiative, EMAC be reauthorized so we 
can continue to work in neighborhoods throughout the United 
States.
    Mr. Denham. Thank you. And we talked earlier with Secretary 
Fugate about the Bottom Up Review. From your experience, what 
are some of the key areas FEMA should be looking closer at to 
help expedite the recovery process following a disaster?
    Mr. Hatfield. The one thing I would like to say is that we 
are working very closely with FEMA. FEMA has developed working 
groups and focus groups to go and entertain some of the changes 
that are necessary in the Public Assistance Program. There is a 
benefit-cost analysis, if you will, that is done in the Public 
Assistance Program in that we do preliminary damage assessment 
reporting, which gives us cost figures to take a look at the 
potential overall impacts to a disaster.
    With that said, I think previously FEMA had put together a 
pilot program and it was a pilot program that focused on 
estimates. And with that, we are actually going to work very 
closely with them to--in hopes that they would actually re-
engage that program.
    But front and foremost, I do believe that the payments that 
have come out for public assistance have been improved. Can 
they be streamlined? Absolutely. But I think a part of the 
achievement at this point is actually working very closely with 
all partners, to include nongovernmental organizations and the 
public sector across the board.
    I think the true achievement of the Public Assistance 
Program and the revamping of that program is something that 
FEMA has also embraced quite some time ago and it is called the 
Whole of the Community. I think that with the potential impacts 
to the Public Assistance Program across the spectrum, if we are 
bringing all those stakeholders in to talk about necessary 
changes with the program, if those changes are delayed, I think 
it will be acceptable knowing that we are going to maximize the 
greatest opportunity of efficiency by factoring in all 
stakeholders that are available.
    Mr. Denham. Thank you. And, Mr. Griggs, will you talk about 
the unique challenges tribes have faced following a disaster 
and how you believe that those can be addressed?
    Mr. Griggs. Some of the problems that we are facing not 
only the White Mountain Apache Tribe but other Indian tribes 
throughout the United States is the government-to-government 
relationships that we see not being strongly honored. When the 
Rodeo-Chediski Fire happened on our reservation, it wasn't 
until it crossed the reservation borderline that other agencies 
started to help with fighting the fire. When Hurricane Katrina 
happened, the United Houma Nation in southern Louisiana did not 
get the proper help that they would have to receive. When the 
Wintco blizzard happened in North and South Dakota, the Lakota 
Tribes did not receive generators and they were without 
electricity.
    Even our own community of Cibecue that I had mentioned, 
they were without power for a week. While communities off 
reservation when the same snowstorm hit, their powers were 
restored within a day or so. But due to the lack of 
cooperation, the lack of communication, and not having the 
assistance there, it is my belief that the American Indians are 
still not receiving the adequate resources that are entitled to 
them or that are there available.
    Once again, the community of Cibecue and McNary, when the 
snow fell, it was our tribal elders who survived that week 
without electricity. When they were growing up, they didn't 
have electricity as they were growing up. Running waters were 
not a part of their daily lives. It was through the teaching of 
our tribal elders that brought our troubled youth through that 
disaster that had happened. So we are a strong people. But when 
our young ones are in need of help, it is through the strength 
of our elders and through the knowledge of what we hold today 
that can help us.
    We do need H.R. 1953 to be passed not only for the White 
Mountain Apache Tribe but other American Indian tribes 
throughout the Nation. The government-to-government relation 
needs to be established through FEMA so that it is the 
President who will call upon or the tribal leaders to call upon 
the President of the United States to declare their nation an 
emergency area where as of now it is the power of the State 
Governors to do that. So this is very strongly supported.
    Mr. Denham. Thank you, Mr. Griggs. I am out of time. 
Ranking Member Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. Mr. Griggs, 
I understand precisely what you are talking about, where the 
philosophy here is supposed to be that those closest to the 
people are the ones who are best able to move in. Indeed FEMA 
testifies that much that happened in the recent disasters were 
first remedied by those closest. So I hear you. Tribes are 
treated as sovereign when people want them to be and often not 
when it is most important to tribes. I think we should look 
closely at that.
    Ms. Little, I was interested in reading your testimony and 
what you had to say about the Emergency Management Performance 
Grants because you gave them so much credit for building--for 
allowing your county, Cullman County, to build a strong 
emergency management system. That system apparently was 
instrumental in helping to save lives. I would like you to 
elaborate on how this grant, the emergency management grant, 
helped you to rebuild that system when it occurred and how you 
think the grant itself was instrumental.
    Ms. Little. Well, the grant for Cullman County amounts to 
about 24 percent of my annual budget. So we receive actually 
around $49,000 a year through the EMPG grant. Without this 
grant, I would be a one-person office. And as a one-person 
office, it would be nearly impossible for me to complete the 
plans that have to be done for disasters and to provide the 
training to emergency responders under the incident command 
system to elected officials about their role and 
responsibilities in disasters and to provide the exercising and 
training that we do as all agencies across our county. So I do 
give the EMPG program a lot of credit for providing those 
resources for us.
    In addition, Cullman County has 42 sirens or outdoor 
warning sirens on our system. My maintenance budget would be 
rather low if it weren't for this funding. So as being 
responsible for more than half of the sirens on that system and 
their upkeep and maintenance, I can attribute a lot of that 
assistance to the EMPG.
    Ms. Norton. So if that funding was reduced----
    Ms. Little. If that funding was reduced, I see that I would 
be a one-person shop quite likely and the funding just would 
not be there for the training and the exercising and the other 
things that we do with the planning. I also see that we would 
have to make choices and tough choices, do we provide this 
training for our first responders or do we repair the sirens as 
they go down. And those are quite expensive when you start 
repairs.
    Ms. Norton. I must say I congratulate you on your 
efficiency. One person doing what you are doing and facing the 
kind of disaster you faced, the grant allowed you to be far 
more prepared than otherwise would have been the case.
    Mr. Hatfield, I would like to ask you about the Urban 
Search and Rescue Grants. As I indicated my admiration of 
them--we always read about them in the newspapers. We are 
amazed--we have one not in my own jurisdiction. There is one in 
Fairfax County. And we read that these people go to every part 
of our country and perform what seems to us to be miracles, 
this kind of mutual aid that goes on. So I don't want--my view 
comes from having called some of them before us after specific 
disasters. But I would like your view as a State official on 
the reauthorizing of the Urban Search and Rescue Grants as a 
national resource. I don't know if you had one in New Jersey.
    Mr. Hatfield. We do. First, I would like to say it is an 
incredible capability that provides support to communities 
throughout the entire Nation. NEMA fully supports the 
reauthorization of dollars that will allow for the continuation 
of efforts for Urban Search and Rescue teams throughout----
    Ms. Norton. Instead of having each jurisdiction try to 
somehow get the necessary ability to handle these disasters by 
themselves, as I understand it these teams, regionally located, 
form the expertise and the equipment. And they go and--so that 
a local jurisdiction doesn't have to worry that because it 
doesn't have the money, because it may be a small community 
like Ms. Little's, that there won't be anybody there for them.
    Mr. Hatfield. I think that we have seen a lot of the Urban 
Search and Rescue teams travel not only within their State but 
outside the State. And very recently we have seen them travel 
overseas. It is an incredible capability, but what it does is 
it really serves the interests of public safety in the best way 
possible. We are looking at multiple disciplines that actually 
member incredible capabilities that are served in our Urban 
Search and Rescue, whether it is swift water rescue, building 
collapse, what have you. The training, the requirements for 
equipment are very strong. And as a result of that, the 28 
Federal teams that support the Nation's interests are robust. 
There are local teams and there are other teams that are not 
federally supported, and they too have capabilities that 
provide support to communities locally and regionally as well.
    Absent the urban search and rescue capability, I couldn't 
imagine taking a look at a catastrophe, cataclysmic events 
absent that specialty, that expertise, and come through that 
with the glowing colors that we have seen with the challenges 
that they have been able to mitigate in responding to efforts 
not only in Haiti but also throughout the United States.
    Ms. Norton. Mr. Chairman, my time has expired, but I do 
want to say this is an example of Government efficiency writ 
large that instead of duplicating these capabilities throughout 
the country, we see that so often one State does the same thing 
another State does or one agency does the same thing another 
agency does. Here Government has done something really right 
and I just want to go on record as indicating my strong support 
for that part of the reauthorization.
    I yield back.
    Mr. Denham. Thank you. Our time has expired for this 
committee hearing, but we do have several other questions that 
we want to get your responses on the record for this hearing. 
Especially Mr. Berginnis. Still several more questions for you 
as well. So we will submit those to you.
    At this time, I would like to thank each of you for your 
testimony. Your comments have been very insightful and helpful 
to today's discussion. I would ask unanimous consent that the 
record of today's hearing remain open until such time as our 
witnesses have provided answers to any questions that have been 
submitted to them in writing and unanimous consent that the 
record remain open for 15 days for any additional comments and 
information submitted by Members or witnesses to be included in 
the record of today's hearing. Without objection, so ordered.
    I would like to thank our witnesses again for their 
testimony today. If no other Members have anything to add, this 
subcommittee stands adjourned.
    [Whereupon, at 11:55 a.m., the subcommittee was adjourned.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
